BLED
JUL 2 i 2021

In The

gwagawgyy

Supreme Court of the United States

AUDREY L. KIMNER
Petitioner,
v

BERKELEY COUNTY SOUTH CAROLINA
Respondent

On Petition For A Writ of Certiorari in the United States
Supreme Court of Appeals for the Ninth Circuit San Francisco, CA

PETITION FOR A WRIT OF CERTIORARI

Audrey L. Kimner, Petiitioner, pro se
P.O. Box 1493
Carmel, CA. 93921
843-754-1543
audreykimnerlO@gmail.com

JUL ? § 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

i
tIST OF PARTIES

The following is a list of all parties to the proceedings in the court below, as required by
Rule 24.1 (b) and Rule 29.1 of the Rules of the Supreme Court of the United States.

1. Petitioner Pro Se, Audrey L. Kimner
2. Berkeley County, South Carolina

ii
QUESTIONS PRESENTED
1. Whether the California Federal Courts ignored the federal laws concerning a public
official forging her name on petitioners house contract involving a South Carolina judge
intentionally embezzling petitioners awarded proceeds via opposing counsel’s ecrow
account involving multiple parties against irrevocable binding arbitration and formal
agreements signed by all respective lawyers in 2011 and 2021 in finality.

2. Whether the California courts error in law on federal question and diversity jurisdiction
involving a public official concerning federal crimes, nor understood that respondent
Berkeley County was working under the color of law as petitoner, college age children
or ex husband did not live in Berkeley County, nor attended school in Berkeley County
during that time to date.
3. Whether the California courts and respondent intentionally violated petitioners Due
Process, Proper Procedural Due Process, including violating First Amendment Rights
to willfully obstruct justice and discriminate against petitioner.

4. Whether the California courts failed to acknowledge the fact that petitioner was illegally
held against her will in Berkeley County South Carolina jail on a false bench warrant by
Abuse of Process, along with abuse of power while intentionally and malicously
slandering petitioner and petitioners business on social media with a false arrest and
wrongful imprisonment, including a photo by Berkeley County Mugshots for years.
5. Whether the California courts and respondnet intentionally placed false and misleading
statements in court documents stating that this case was frivolous while malicously
retaliating against petitioner by retracting previously awarded fee waivers, including a
separate order entered after petitioners case was already accepted in the Ninth Circuit
Court of Appeals.

6. Whether the Calfornia courts and respondent were involved in ongoing Intrinsic and
Extrinsic fraud in both states while intentionally ignoring two Bill of Rights, and all
domestic assault laws with no respect shown to petitioner by law while refusing
protection, resolve, remedy, or relief as previously requested by petitioner.

iii
TABLE OF CONTENTS

Pages

1. List of Parties
2. Questions Presented

ii

3. Table of Contents

iii

4. Table of Authorities

iv

5. Summary
6. Opinions and Orders with proof attached

1
2

7. Jurisdiction

2

8. Constitutional and Statutory Provisions Involved

3

9. Statements of Facts of Law

,4-10

10. Conclusion
11. Error of Judges and reason for accepting petition
12. Certificate, word count and mailing date

11-13
13,14
15

iv
TABLE OF AUTHORITIES

Pages
1. Bulloch v United States, 763 F2d 1115,1121, (10th Cir. 1985)

2. Section 11139, 8, (a).

5
5

3. Scheidler v National Organization for Women, 547 US 9 (2006).......5

4. Bivens v Six Unknown National Named Agents, 403 US 388 (1971).5
5. Bullock v Champaign, 569 U.S._(2013).

5

6. Tanner v United States, 483 U.S. 107,128, (1989).

6

7. Dennis v United States v Tuohey, 867 F. 2d 534, (9th Cir. 1989)......6
8. Federal Rule 59 and 60.

6,10

9. McDonald Caldron, 197 F.3d 1253,1255 n.l (1999).

7

10. Potts v Lazarin No. H044587 in Cal. (6th Cir. 2020)

7

11. Harris v Harvey, 436 F.Supp. 143 (ED Wisl977).

7

12. Wheeler, 373 U.S. 647 (1963)

10

13. Massachusetts v Mellon 42, Robert S. Peck, 35 trial 66 (Nov. 1999)10
14. Daimler Chrysler Cort v Cuno, 547 U.S. 332,342, (2006)

10

15. Bankers Trust v Braten, 317 S.C. 547, 455 S.E.2d 101 )Ct. App.1995) 10
16. Mr. G and Mrs. G. 320 S.C. 28, 550, S.E. 305,465 S.E. 2d 101 App. 1995) 10
Protections Under the Law
Federal Rules, 59, 60, (b)(3),
Two Bill of Rights, including victim and financial abuse victim 28(8) (2) 47 227
Deprivation of Rights 18 U.S.C. § 242
Model Rule 3.3 (c)
Constitutional Rights, 1,6,8,14
28 U.S.C. 1332, (a) (1) Womens Act
Marsy’s Law, Article 1 Declaration
of 1964, Executive orders 11246,
28 USC § 131,28 USC § 1291
1965

1
----------------- -------------------------------------SUMMARY_____________________________
I, Audrey L. Kimner, forced pro se petitioner, an assault and financial victim, was intentionally
abused after hired and opposing counsel who failed to protect petitioner while respondent
Berkeley County was Conspiring ongoing with many others by Abuse of Process to intentionally
further harm petitioner. California courts have refused to allow First Amendment Rights to
obstruct justice by not allowing court time on the record, failing to offer Proper Procedural Due
Process, Due Process and ignoring petitioners irrevocable binding arbitration concerning
petitioners home in Charleston, South Carolina. This home was involved in a racketeering
scheme by Daniel Island South Carolina realty, golf club VP, board members and many others.
This case is not frivolous and involves many federal crimes involving public officials in Berkeley
County. This is a Conspiracy to commit mortgage fraud and fraud for profit concerning petitioners
home. Not one judge holds subject matter jurisdiction now due to not following the law while
tampering with this federal case and obstruction of justice. Petitioner requested all petitioners'
cases to be elevated to the United States Supreme Court for final resolve, relief and remedy
concerning Fraud upon the courts with unprofessional ethics to date by many bar members and
ignoring all oaths of office. Petitioners counsel Earle S. Lilly, Esq noted in 2012 and 2013 of the
long term bullying, unwarranted and false fees and personal aggression by Lori D. Stoney.Esq
and petitioners ex husband. All to date have illegally and intentionally overturned irrevocable
binding arbitration and used petitioners awarded assets for profit through Berkeley County South
Carolina involving petitioners home and awarded assets and by law all must be returned.
Petitioner has proved this indisputable case of respondent Berkeley County public officials taking
over petitioners home through court involving a closed case to profit against Federal Laws.
Petitioner has been vilified in orders created under the color of law to silence petitioner and by
jailing petitioner with no due process out of jurisdiction in Berkeley County South Carolina with
recused judges in this county. These court orders are void, unenforceable and cross state lines
into California to further harm petitioners to destroy petitioners business and personal life, and on
social media with false arrest photos by Berkeley County mugshots. The respondents lawyer
refused to take it down and has worked ex parte to cover her clients multiple federal crimes
involving cover ups of domestic assault arrest and many lawyers involving themselves in
petitioners financial business, and while using our children in the middle to leverage all stolen
awarded assets. This is fraud upon the court and California judges refused to allow First
Amendment Rights to overturn bad faith litigation with litigation, and this must be addressed in
Washington for final resolve. Many conspired with a litigant to conspire against petitioner
intentionally and maliciously, and while intentionally vilifying petitioner in courts orders, including
California courts to silence petitioner. This is a federal matter, not a state matter, not frivolous and
is ongoing fraud to date by double dipping, illegally garnishing petitioners wages in California
after exchanging petitioners awarded assets in exchange for commerce against Federal Laws
and Conspiracy. Petitioner had to file this case due to the respondent being a public official,
involving a South Carolina recused judge. Also, this respondent has sued Jerry Theos, Esq and
won for vexatious litigation, and he was also highly involved in these proven federal crimes by
using the same county. This is all public knowledge, along with other crimes in the state naming
South Carolina the most dangerous states for families when I left in 2015.

2
OPINIONS BELOW
Petitioner REQUEST ALL ORDERS TO BE VACATED due to judges and HIS CLERKS not
following the law, error of law and tampering with this case involving FRAUD. Petitioner sent a
petition to have this district court judge removed over a year ago and all are now trying to cover
their own crimes, and not only on one real estate case, but two cases involving Conspiracy to
commit mortgage fraud for profit involving bar members and public officials. Petitioner is filing
another judicial complaint. It is clear that the Ninth Circuit ruled California has jurisdiction on one
of petitioner's home cases in Texas, but not petitioner's home in SC? These are clear conflicts
while violating petitioners Constitutional Rights. The judge did not follow his own orders and no
showed in court, including respondent while working exparte BY HIS ASSISTANT, CLERK
POSING AS A JUDGE. The orders attached are unenforceable, moot, VOID, error in law, and
include a step down Ninth Circuit judge, and to date no judge has jurisdiction. THIS CASE IS
SHOCKING! Petitioners home was in an IRREVOCABLE BINDING ARBITRATION IN A
CLOSED 2011 CASE WITH FORMAL AGREEMENTS. See all attached petitioner's proof and
orders attached with proof of obstruction and tampering by California judges and CLERKS
IMPERSONATING A JUDGE. The judge and (CLERK) dismissing the case prior to any hearing
and scheduled case management hearing, “the day of.” 2-1-2021,3-3-2021, 3-11-2021,
3-11-2021, 6-21-2021. A “frivolous" separate order was entered after petitioners case acceptance
in the Ninth Cir. TAMPERING, INTRINSIC AND EXTRINSIC FRAUD UPON ALL COURTS, AND
RESPONDENT.
_______________
JURISDICTION
Petitioner has been a California resident since petitioner was forcefully extorted out of
petitionerismidrise in Texas, which petitioner owned for three years in Houston, Texas after
leaving South Carolina out of fear from gang stalking and wiretapping from South Carolina.
Respondent Berkeley County was creating orders without petitioner living in the county or state
with No Due Process and out of jurisdiction for years. Constitutional violations under 28 U.S.C. §
131, provides “ The district courts shall have original jurisdiction of all civil actions arising under
the Constitution, laws, and treaties of The United States. The complaint exists of a “pattern” with
exclusive Rights under (2) 47 § 227. The California Federal Complaint form reflects this diversity
case under 28 U.S.C. § 1332, (a) (1), as Respondents Berkeley County are in South Carolina,
and are public officials. This is a separate case that had to be filed separate of two other civil
cases, although respondent is highly involved in petitioners FEDERAL wiretapping case.The
cases are not inclusive, and should have been heard in the California District Court, which now
the Ninth Circuit agrees on jurisdiction under 28 U.S.C.§ 1291 per a recent order, as respondents
intentionally conspired. Under Model Rule 3.3 (c), which states a lawyer should “refuse to offer
evidence that the lawyer reasonably knows is false". The respondents willfully and intentionally
conspired and overturned an irrevocable binding arbitration and knowing the case was closed
and petitioner's home was in an arbitration award that is sound to date. Not only did this
respondent tamper with petitioners home, the respondent intentionally sent false court orders and
attached a false lien on petitioners Texas midrise illegally to financially abuse petitioner to date.
This respondent has confused all states with FALSE, MOOT, VOID ORDERS. Petitioner believes
all three cases were made inclusive to intentionally remove, tamper and obstruct.

3
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Deprivation of Rights under 18 U.S.C. § 242,
“ makes it a crime for a person acting under the color of law to willfully deprive a person of a
Right or privilege protected by the Constitution or laws of the United States”.
1. Fourteenth Amendment, “ Due Process" and Procedural Due Process, “ No state shall
make or enforce any law which abridge the privilege or immunity of citizens of the United
States; nor shall any state deprive any person of life, liberty or property without due process of
law; nor deny to any person within its jurisdiction the Equal protection of the laws"
Procedural refers to the constitutional requirement that when the federal government acts in such
a way that denies a citizen of a life, liberty, or property interest, the person must be given notice,
the opportunity to be heard, and a decision by a neutral decision maker. 2 (hearing) 758.
2. First Amendment.
“Congress shall make no law respecting an establishment of religion, or prohibiting the free
exercise thereof, or abridging the freedom of speech, or of the press; or the right of the
people peaceably to assemble, and to petition the Government for a redress of grievances”.
3. Eighth Amendment,
“ Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments conflicted”.
4. Sixth Amendment,
“ Rights to a fair trial”. Petitioner also has Rights under ADA Laws, Marsy’s Law and two Bill of
Rights for victims. Declaration under Article 1 in California includes twelve states to date and
does not allow for harassment and theft of awarded assets. All must be returned after being
used as evidence in a court of law.
Women’s
Rights and Civil Rights Act of 1964 and Victims Bill of Rights;
* Executive orders 11246 issued on September 24,1965, to address compliance with civil rights
regulations. This included women's rights to custody in family law, rights to own property and
rights to equal wages. Laws are fifty fifty in South Carolina concerning divorce, which includes
alimony, which did not happen to date.
* To be treated with fairness and respect for his or her privacy and dignity, and to be free from
intimidation, harassment, abuse, and the Right to a fast trial.

4
STATEMENT OF FACTS OF LAW
1. Whether the California Federal Courts failed to acknowledge the federal laws concerning
a public official forging her name on petitioners home contract involving a South
Carolina intentionally embezzling petitioners awarded proceeds via opposing counsel's
escrow account involving multiple parties against irrevocable binding arbitration and
formal agreements signed by all respective lawyers in 2011 and 2012 in finality.
This is an indisputable concerning forgery, Conspiracy to mortgage fraud for profit, and
petitioner has the Right to bring these federal crimes to the California Federal Courts
for resolve, relief and to overturn bad faith litigation with litigation. The arbitration award
is sound to date and is on page ten of the award. See pages of proof attached.
This is not a state matter, as many conspired to relitigate petitioners awarded assets,
and home while using our children in the middle to extort petitioners out of
jurisdiction, as all federal crimes were intentional and malicious. All counsel willfully
participated knowingly and against formal agreements and irrevocable binding
arbitration, and petitioner gave all counsel on both sides a copy of agreements
ahead of time and petitioner was intentionally ignored for years.
All orders from Berkeley County South Carolina involve invalid orders created under the
color of law, and are still crossing state lines. California court orders are in error of law,
involving fraud and are not enforceable due to Federal judges not following the law,
therefore all orders should be VACATED, including all mandates. Petitioner has placed
all proof and laws with case law on the record. Petitioner made the Ninth Circuit aware
that California judge Edward Daviila obstructed and tempered for bar members involving
petitioners property in Houston, Texas that was involved in a Conspiracy to commit
mortgage fraud for profit while knowing petitioner was involved in financial abuse, which
by law all must be returned. The midrise is also entangled in respondent Berkeley
County South Carolina false courts that were attached to petitioners mid rise while a
judge illegally gave opposing counsel petitioners midrise title regardless of a permanent
injunction with a bond attached and continued ongoing mortgage fraud for profit schemes
and recently. Both of petitioners properties look to have fake names on the closing
contracts, and the women on the South Carolina home contract told petitioner that she
did not purchase petitioners South Carolina home. All petitioner’s proceeds went to
lawyers of record and to LLC ‘s owned by real estate brokers, and what looks to be an
online South Carolina lawyer who donates stolen home proceeds to donate to judge
campaigns per public knowledge. This should be investigated, but regardless the homes
must be returned, and with punitive damages owed to petitioner due to intentional Fraud
for profit.There was no Proper Procedural Due Process in California and judges refused
petitioners First Amendment Rights to be heard in court to intentionally keep all fraud
upon the court off of the record, and in retaliation for speaking up about bar members,

Case law includes many forms under Racketeering, Conspiracy and violations of
Constitutional Rights involving many public officials. Section 11139.8,1 (a), Legislature
finds and declares that California is the leader in protecting civil rights and preventing
discrimination. See Bulloch v United States, 763 F2d 11115,1121, (10th cir. 1985). Fraud
upon the court is fraud which is directed to the judiciary machinery itself. “It is where the
impartial functions of the courts have been directly corrupted.”, which fit all of petitioners
federal cases to date with no hearings.no remedy or resolve, or warranted punitive
damages owed, including the fact that all awarded assets returned under Article 1 of the
California Constitution, Marsy’s Law and per petitioner Constitutional Rights.
28 U.S.C.§ 131 provides: “ The district courts shall have original jurisdiction of all civil
actions arising under the Constitution, laws, or treaties of the United States”. The
Federal Hobbs Act applies as petitioners awarded assets that were illegally used in
exchange for commerce and by extortion as stated in petitioners appeal. See
Scheidler v National Organization for women 547 US 9 ((2006),
Petitioner has the Right to file a complaint against public officials under the Bivens
Action for acting under the color of law, especially in Federal Court in California. Bivens
Action refers to a lawsuit for damages when a federal officer who is acting in the federal
authority allegedly violates the United States Constitution by federal officers acting.
Petitioner proved many Constitutional Rights were violated in California and by South
Carolina Respondent.See Bivens v Six Unknown National Named Agents, 403 U.S. 388
(1971). Petitioners request all cases be moved to the United States Supreme Court due
to failure to offer Proper Procedural Due Process, Due Process, resolve, and now
multiple public officials are involved. All involved deprived petitioner of First Amendment
Right to be heard by refusing court hearings and while ignoring self admitted proof, proof
of fraud upon the court and Conspiracy involving Federal mortgage crimes, especially
embezzlement out of petitioners escrow accounts with many bar member removing
monies and using petitioners escrow accounts willfully, intentionally and maliciously.
These escrow accounts were to have the petitioner’s signature and prior approval to
release funds, and several checks were changed into lawyers’ names from petitioner’s
cases that were not earned. Many bar members stole money out of escrow without any
questions asked and not shown in court, and dropped the case without petitioner's
consent or a judge's release. Funds were withheld against the Federal Hobbs Act and
by force. See Scheidler v National Organization for Women, US 9 (2006). This CIVIL
WRONG, as stated by the Supreme Court, must have proof of “culpable state of mind”,
with a “ knowledge of, or gross recklessness in respect to the improper nature of the
relevant fiduciary behavior. Petitioner has been in shock how many members and public
officials, along with this respondent have conducted themselves involving petitioners
awarded assets, and how the cases were intentionally strung together in California when
all cases were separate due to South Carolina officials, as respondent placed false liens
on petitioners stolen title and property in the same
•

6
manner while unlawfully using escrow accounts and false court orders
intentionally created under the color of law during financial abuse by all.
See Bullock v BankChampaign, 569 U.S._ (2013). by unanimous decision.
Under Model Rule, 4.1, truthfulness in statements to others, prohibits lawyers from
making false statements of fact and law to a third, whether this rule was necessary as a
rule of professional conduct. The respondents counsel and California judges in this
case viewed all proof by petitioner and refused to bring these federal crimes forward,
participated in covering up, and while moving hearings “on the day of with the judges
assistant and clerk.This is ex parte and intentional obstruction occurred during our
global pandemic knowing the facts in this case are clear, and while vilifying petitioner
for no reason in court orders. All known petitioners are assault and financial abuse
victims. Cruel and Unusual punishment applies per the United States Eighth
Amendment, intentionally and by tampering with retaliation. Retaliation falls under
18 U.S.C.§ 1513. See EECO v Morgan Stanley and Co., Inc 324 F. Supp 2d 451.
2. Whether the California courts error on federal question and diversity jurisdiction
involving a public official concerning federal crimes, nor understood that respondent
Berkeley County was working under the color of law, out of jurisdiction, as petitioner,
college age children and ex husband did not live in this county at the time, nor
attended Berkeley County schools to date.
Petitioner is a four year California resident, and lived in Houston after leaving South
Carolina due to fear for her life. Our children attended Charleston County schools.
Petitioner later realized that this respondent was working under the color of law, and this
was intentional by members and public officials. To date, this respondent extorts
petitioners wages with false court orders, sends false court orders to attach false liens to
petitioners business and properties that has nothing to do with our divorce decree. The
respondent has been relentless in taking awarded assets for child support that Petitioner
could have never owed per final divorce order and irrevocable binding arbitration award.
See attached proof with opinions above on page 2. Berkeley County judges worked out
of jurisdiction and withheld petitioners awarded 401 k and retirement in the event
petitioner does not pay child support, which was never possible or legal. Petitioner had to
hire a lawyer for the day to have all recourse, which all Berkeley County judges recused,
and some lived two hours away from this county. Petitioners final decree states that ex
husband is not attached to petitioners business, nor will profit from petitioners design
business. This is intentional, involves numerous people, public officials and to date. This
respondent Berkeley County clerk threatened petitioner and blocked her email
after.Petitioner has taken all proper avenues to get this county to stop harassing, stop
threats and intimidation, and financially abusing across state lines with no avail. Under
the color of law means all orders are not enforceable, moot and were created in
retaliation. Petitioner has been obstructed in this case against oaths of office,

2
canons of ethics, including professional ethics, which also include South Carolina’s
state ethics board, lawyer conduct and judicial conduct board in their state, and in
California. Respondent committed fraud in writing with fraudulent activity, this
qualifies as Fraud Conspiracy. Conspiracy to commit mortgage fraud for profit has a
ten year statute, and the fraud continues as petitioner is obstructed by all involved in
this case and other public officials against federal laws, oaths and many canons.
See Tanner v United States, 483 U.S. 107,128, (1987), and Dennis v United States
v Tuohey, 867 F. 2d 534, (9th Cir. 1989).

3.

Whether the California courts and respondent intentionally violated Due Process,
and Proper Procedural Due Process, including violating First Amendment Rights
to willfully obstruct justice and discriminate against petitioner.
California and respondent violated petitioners Due Process by failing to offer service
prior to a false and wrongful arrest in Berkeley County, and moving lawsuits off the
record involving Berkeley County officials and recused Berkeley County public
officials, moving court dates the day off, ex parte numerous times and intentionally
obstructing all hearings to show proof of federal crimes and fraud against petitioners
First Amendment Rights in both states. Petitioner has now filed a lawsuit for violating
Fourteenth Amendment Rights, brought forth all proof and case law, and has been
blocked from all public courtrooms in two states with fraud upon the court and federal
crimes.
Civil Rule 60 allows a movant to make the following claims within one year of the
Judgement, but the courts obstructed petitioners complaints and during covid, and
retracted fee waivers to ensure petitioner does not have resolve,or Rights to be heard.
Petitioner filed under Rule 60 and VACATING ORDERS due to no subject matter
jurisdiction since the laws were not followed, and under the color of law. Rule 60: (1)
Mistake, inadvertence, surprise, or excusable NEGLECT: (2) new discovered
Evidence that, with reasonable diligence, could not have been discovered in time to
move for a new trial under Rule 59: (3) FRAUD, misrepresentation or ERROR OF
LAW or facts in the court's decision, which the petitioner brought to the all courts, and
was disrespected, ignored and vilified for doing so. Petitioner requested numerous
hearings and was obstructed for no reason. Petitioner believes this is intentional and
the fact that petitioner is pro se, as stated relentlessly in court documents. See Me
Dowell v Calderon, 197 F. 3d 1253,1255 n. 1 (9th Cir. 1999),( Rule 59 (e) is Available
to “ correct errors of law or fact upon which the judgement is based”. No orders to
date are legal due to not following the law, crossing state line and deprive petitioner of
Rights, resolve, relief or remand or remedy by law. The Ninth Circuit Court orders
states they do not have to honor First Amendment Rights to court time as pro se,
which is unconstitutional and should void all orders in California courts. See Potts v
Lazarin, No. H044587 in Cal. (6th Cir. 2020) under the Anti Slapp

8
Law on First Amendment Rights. Deprivation of Rights under 18 U.S.C.§ 242,
“makes it a crime for a person acting under the color of law to willfully deprive a person of
a Right or privilege protected by the Constitution or laws of the United States, and
petitioner is a United States citizen.
4. Whether the California courts failed to acknowledge the fact that petitioner was
illegally held against her will in Berkeley County South Carolina jail on a false bench
warrant by abuse of process, along with abuse of power while intentionally and
maliciously slandering petitioners business on social media with a false arrest and
wrongful imprisonment, including a photo by Berkeley County Mugshots for years.
* Victims Bill of Rights: TO BE TREATED WITH FAIRNESS, RESPECT FOR HIS OR HER
PRIVACY AND DIGNITY, AND TO BE FREE FROM INTIMIDATION, HARASSMENT, AND
ABUSE, AND THE RIGHT TO A FAST TRIAL.
Petitioner was illegally arrested and jailed on a false bench warrant by a recused Berkeley
county judge outside of a courtroom while obstructing petitioner from entering a hearing with
proof and petitioner sat in jail for days without any reason given, and not online with friends and
a domestic violence advocate witness who was asking questions and stating this was illegal.
The unenforceable orders from three and a half years prior were all false court orders with
dates that prove all false orders, stating petitioner “no showed” in court and refused to sign
petitioners house contract. Petitioner provided the proof in documents to respondents Counsel
and California judges, but all involved ignored. Petitioner signed two contracts prior to court
and was not allowed to come to any closing, and wrote there was no closing. Now the court
orders are proven false, as the home sold a week prior and from another agent, and closed two
hours away in Columbia South Carolina. Petitioner was once again obstructed from bringing
this to federal court after petitioner was wrongfully jailed on a six month sentence on a false
bench warrant, and then threatened in open court by several judges who did not know the case
or back story, nor petitioner. Petitioner was not allowed documents in court, a lawyer, or closing
arguments, and told not to show up on their public court again or the petitioner would have a
six months sentence held over petitioner's head until May when our children aged out at 18.
This false arrest destroyed petitioners career, financial status, business and personal life, and
blocked petitioners from our children's high school and college graduations, and Eagle Scout
ceremony that their devoted mother was involved in for years. The opposing counsel stated on
the record that throwing petitioner in jail was the only way to keep petitioner from contacting
people, which petitioner now finds that all case numbers were intentionally changed so the
record did not show the past history of our binding arbitration or any true facts, nor petitioners
side for over ten years. This was against petitioners First Amendment Rights, including all
Rights, and to intentionally harm and silence petitioners due to many federal crimes by all
involved. Nothing is more cruel and all was willful, malicious and intentional. Petitioner should
be awarded punitive damages by law for this wrongful false arrest

9
------wrongfulJmprisonment,-embarrassmentand-destroyjng,petitionersJife-with-No-Due-Rrocess.Ihis.
was sinister and cruel, which falls under our Eighth Amendment Rights, and warrants punitive
damages. This cruelty and bounding petitioners feet and hands in chains goes against all
domestic assault victims laws, and was evil as far as petitioner is concerned. This is irreversible
harm, and to petitioner children for life, including their grandparents. This for grandparents is
elder abuse and it continues to this day, and the financial drain on top that all courts continue to
press upon us all while retracting fee waivers and blocking all assistance intentionally. Again
cruel on top of domestic assault that this respondent covered up for years, along with the state of
South Carolina. Respondants do not like petitioner telling the cruelty, child trafficking and human
trafficking that South Carolina is leading in December of 2021, and all is public knowledge.
Petitioner is one of many mothers not allowed in the state to retrieve their own children or stolen
assets, and some are gang raped in group homes and left for dead, and while guardians reap
the suits from their rapes and cut the mothers out of the damages. Petitioner believes this is
what is going on by blocking lawsuits and court time for petitioners in both states. Petitioner was
bound to this home by ex husband for years and not allowed to go back to see family or friends
after moving to South Carolina with a motive to steal all monies and involve bar members and
state reps to do so, and included his own family to abuse and hide our children to this date with
no contact. This man has had a double life and multiple arrests federally in multiple cities without
petitioners knowledge, and petitioner did not know he did drugs or had a hidden life of greed, etc
set up to harm us three. All left us three without means to eat or survive for years and petitioner's
family had to support us during divorce for a financial squeeze while he lived a lavish lifestyle
with his attorneys with petitioners marital monies and assets, including this home. Petitioner
wished now that she had sued for hundreds of millions of dollars with this suit, as all would not
have been possible without this respondents illegal involvement. Petitioner has a long list of
mothers, witnesses and children missing in South Carolina, and was threatened by Clemson
college police if I come to see my own son. One mothers case is public and her name is Brenda
Bryant, and the abuse will make any human being deathly ill.
5. Whether the California courts and respondent intentionally placed false and misleading
statements in court documents stating falsely that this case was frivolous while maliciously
retaliating against petitioner by retracting previously awarded fee waivers, including a
separate order entered after petitioners case was already accepted in the Ninth Circuit
Court of Appeals.
California judges placed a so called rubber stamp of frivolous on all three cases, and
retracted fee waivers after petitioner filed appeals, but petitioners parents paid for the fees by
check after many unwarranted stays were placed on the fee waivers, as the courts sat on the
cases for over a year on two and this case.The Ninth Circuit states in orders that after one
year the cases can be discarded. This is biased and unconstitutional, and the reason
petitioner filed under 18 U.S.C. § 242 for Deprivation of Rjghts. The fees were never returned
and the cases were not heard or read, and half was intentionally never placed on the record,
and was only placed on no publishing after obstruction and petitioner complained about
violating

10
petitioners Rights and Rights to privacy that was ignored, but allowed in public of
petitioners whereabouts on social media after petitioner requested restraints. The Ninth
Circuit wrote a false narrative to cover the petitioner's truth in legal documents.
This was not only cruel, it is illegal, disrespectful and dangerous! To keep this ten
year ongoing fraud short, petitioner has stated all case law above and in filings that
were not read or placed on the record to date in any California court, nor U.S.
Supreme Court.
6. Whether the California courts and respondent were involved in ongoing intrinsic and
extrinsic fraud, abuse of power and abuse of process while intentionally ignoring petitioners
two Bill of Rights, including all domestic assault laws with no respect shown to petitioner by
law while refusing protection, resolve, remedy, or relief as previously requested by petitioner.
Under 25 CFR § 11.448, states: A person acting or purporting to act in an official capacity or
taking advantage of such actual or purported capacity commits a misdemeanor if, knowing
that his or her conduct is illegal, he or she. These are felonies that are not brought forth,
aiding and abetting by respondent,which are now accessories to crimes for all involved and
had knowledge, and covered it up. These public officials no longer have immunity. See Harris
V Harvey,436 F.Supp. 143 (ED Wis. 1977). Abuse of office occurred with mistreatment, false
arrest, false imprisonment, false mortgage liens, and infringement of personal Rights and
property. This also includes abuse of power for revenge, including discrimination for being pro
se to date, including many public officials, and court clerks posing as judges.This is clear in
Federal Rule 28 (8) posted at the Supreme Court buillding for Equal Protections Under the
Law without acting discriminitory to pro se litigants, including rulings. Harris v Harvey states:
An individual who has suffered injuries of unjustified invidous discrimination, may be able to
establish and equal protections violation, which petitioner has proven in this case and several
others to date. See Wheeler, 373 U.S. 647 (1963) and Massachusetts v Mellon 42, and
Robert S. Peck, 35 trial 66 (Nov.1999) Note: a plaintiff has standing only if “ allege personal
injury fairly traceable to the defendant's allegedly unlawful conduct and likely to be addressed
by the requested relief, which petitioner has proven. See, Daimlerchrysler Corp v Cuno, 547
U.S. 332, 342 (2006).
Extrinsic and Intrinsic fraud: All involved have prevented petitioner of the following; Extrinsic
fraud is fraud that induces one not to present a case in court or deprives one of the
opportunity to be heard or is not involved in the actual issues.
In 2001 Fraud upon the court by an attorney, whether or not intrinsic or extrinsic, can be set
aside as a prior judgement and court declined to follow for reasoning of Bankers Trust v
Braten, 317 S.C. 547,455 S.E. 2d 199, (Ct App.1995).
Federal Rule 60(b)(3), PERMITS JUDGEMENTS TO BE SET ASIDE FOR FRAUD,
WHETHER THE FRAUD IS INTRINSIC OR EXTRINSIC.” Mr. G v Mrs.G, 320 S.C. 28, 550
S.E. 305,465 S.E. 2d 101 (Ct. App. 1995) fn. 2. (emphasis added).
Petitioner filed under rule 60 in and was ignored, and discriminated against pro se.

11
_________________________ CONCLUSION__________________________________
Petitioner feels as though petitioner has been intentionally prevented from all courtrooms in both
states for multiple reasons, and especially for being pro se. If petitioner was allowed to have five
minutes of court time, the courts would have known that petitioner was honest, followed the
laws and presented all cases with proven case law and forensics to all courts with no intent to
abuse the courts in any way. Petitioner is not a lawyer, but has continued to leam more every
day and every day is a new find in this case, as all involved forced ongoing harm on petitioner.
Petitioners had to leam laws due to malpractice, intentional further harm through abuse of
power and abuse of process. Petitioner did the best of petitioners ability to keep up with the
unnecessary court orders, intentionally moved court dates on the day of by California judges
with court clerks while failing to offer proper procedural due process and without First
Amendment Rights. There has been no explanation, no reason provided, no resolve, no relief,
no remand, nor recusal after petitions of truth were filed. Requested restraints were not taken
seriously, and all denied no contact orders and deprived all domestic assault victims rights.
Petitioner was denied a chance to speak, defend, or have awarded assets returned per law due
to the failure to be heard ,as petitioner stated clearly in all complaints.The California courts
ignored the proof, which is indisputable, prior to covid, during covid and after California opened
up, and while forcing petitioner to endure more abuse of the process. This was violating canon
of ethics, against oaths of office and while again vilifying petitioner when petitioner was forced to
be on social services when petitioner has her own assets that are intentionally withheld against
federal laws. Two luxury homes are in complaints with no resolve or relief given after many
were involved in Conspiracy to commit mortgage fraud for profit schemes, and while others
were profiting off of petitioners awarded assets for years to date. Petitioner was forced to leave
jobs, endured embarrassment and harassment on social media with false information
intentionally placed in public to date, forced to endure threats and intimidation by judges and
county clerks in Berkeley County while illegal garnishing of wages, along with withdrawing
petitioners parents money out of petitioners Wells Fargo Account that was not petitioners
monies. The respondent refused to return withheld 401 k and retirement, and after coercion
petitioned out of two states by stalking, wiretapping and having the petitioner followed, including
police officers impersonating an officer with many other shady characters on social media. This
includes facebook messenger, facebook, hacking petitioners emails, phones, selling petitioners
phone number. There is ongoing multiple false and misleading statements in court documents to
harass and intimidate, vilify and destroy petitioners business and personal life, and while
conspiring with many third parties who were involved. The respondent Berkeley County lawyer
Robin was lying, working exparte, was very unprofessional while refusing to bring these federal
crimes forward.This lawyer also refused to return petitioners own property of hard drives
withheld by her client. She sent petitioner emails asking what petitioners next moves were and
involving multiple new lawyers and leaving me out of hearings of appearances, along with
California judges upon written request by petitioner. All of this happened during a global
pandemic when petitioner still does not know where her two children are, as our phones are
blocked and with ongoing wiretapping. Petitioner is not able to work for the enormous abuse of
process and fraud upon all courts to date. Petitioner has won by default in two cases in
California, but was ignored. Petitioner has also requested all cases be

.12
brought up to Washington for petitioner to exercise her rights, Petitioner has Rights to a fair trial
by law that all courts to date have intentionally obstructed, tampered, and while clerks pose as
judges while there is proof of ex parte communications and with the proof sent to all concerned.
Petitioner has requested the help of the California Congressman who has ignored petitioner,
and well over a year. Petitioner was denied all Federal funding in California after and while
enduring abuse of the process and abuse of power by all named ,and mentioned all names to
date of who intentionally participated. The respondents own newly named court clerk has
threatened extortion to petitioner and immediately blocking her email after her threats, and now
petitioner finds out that she was the court reporter who has tampered with open court testimony
given by petitioners ex husband to withhold and obstruct federal crimes and with self admittance
of my ex husband to place stolen awarded assets back in petitioner's name, which he lied under
oath and never followed through. Now this stolen asset is illegally placed on petitioners credit
report, as Lori Stoney, Esq and others refused to remove it. This abuse of the process has left
the petitioner with ruined excellent credit, losses of multi millions of dollars, slander of character
on social media, embarrassment and also loss of a new car that was almost paid off.
Respondent Berkeley County has intentionally participated and ignored while intentionally
abusing petitioners parents and entire family with unconstitutional no contact orders, refused
their testimony in open court as well, and while taking custody away illegally removed from
petitioner during an emergency of a passenger on a United Airlines Flight in 2015. Most recused
judges have threatened petitioners not to come back to a PUBLIC courthouse. All involved
refused to show proof that there was No Due Process and No Procedural Due Process involving
false court orders while participating in scheduling numerous false emergency hearings with no
emergency, using spyware tainted emails against petitioner in 2018, and using their health
hazard private jail to hold petitioner against petitioners will for using petitioners First
Amendment Rights. This has been intentional bullying while petitioners filed and served
lawsuits to keep petitioners aside from all court records in Berkeley County. Petitioner recently
learnt that all court orders are not valid or enforceable by law, and are dated to date, not ten
years ago. This is ongoing fraud, which petitioner has given all proof to all courts to date with no
resolve while all were intentionally withholding crucial orders with no explanation, no relief, no
court dates, nor any information while petitioner is being told that all involved do not have to
provide Procedural Due Process or First Amendment Rights. The California courts are bias,
place bias on their website, on their own federal forms, and offer free fee waivers to illegals, but
retract petitioners fee waivers when the judges no longer have subject matter jurisdiction to
mandate all of petitioners cases closed, especially with fraud upon all courts, and while all
Constitutional Rights are refused, and ignored with intentional vilification of a pro se litigant. If
so, this case would be closed and petitioner would have her own assets and homes returned by
law and petitioner would have been back to work. To force a petitioner to wait instead of having
her own assets is cruel and intentional. Petitioner has requested the judicial board review all
cases, and for the United States Supreme Court to review and honor default judgements, and
warranted punitive damages owed to

13.
petitioner on top of return of all awarded assets. Petitioner request for all courts to stop abusing
the process to further abuse a mother who has no criminal history, no history of abuse of any
kind, and to reconnect petitioner with her children when this respondent Berkeley County
intentionally extorted and used children as pawns to extort petitioners own awarded assets
against federal laws. Petitioner has rights and rights to remedy now in a court of law, and rights
to be restored by the U.S.Supreme Court without intentional interference, ex parte
communications and tampering. Petitioner thanked the newly appointed court clerk for taking
over this case from the original court clerk who was tampering and taking petitioners' cases off
the docket after accepting both cases,which are now in clear default in both California and the
United States Supreme Court. All three cases are not connected, and the federal courts request
this forgery by a public official be filed in a separate case by law, which petitioner followed all
rules of the courts to date with sworn truth to the best of petitioners ability, and without knowing
all behind the scenes that took place without petitioners knowledge or consent. Petitioner
logged in to her yahoo account three days ago and all privileged emails and correspondence of
approximately 4,000 plus emails are wiped clean by ongoing wiretapping. This is new and found
evidence never given to the courts and proves ongoing invasion of privacy, along with provided
forensic reports stating yahoo accounts were entered illegally and whose IP’s numbers are
known and are others not known, as in Paul Tinkler’s Esq. office at the time with Lori Stoney,
Esq. as his office staff. Petitioner has proof with screenshots and dates this week. The only way
to resolve all is a court of law, and petitioner should have the Right to be heard and respected.

ERROR OF JUDGES
No judge has subject matter jurisdiction or immunity on all Audrey L. Kimner’s cases after not
following the law, fraud, nor are the orders enforceable while moot, and all are full of untruths
with false and misleading statements. The court orders show the pattern of abuse of process,
the dates are clear, and orders were sent after the Ninth Circuit accepted this case. Another
separate order after this case was accepted shows malice, obstruction and tampering. These
orders were prepared by the clerks who have also wrongfully vilified petitioner for contacting the
court ex parte on the day of video conference meeting when petitioner was following the judges
orders to appear on video the day of. Petitioner copied or sent opposing counsel copies even
though this included privileged information on other cases that were none of the opposing
counsel’s concern or business. Petitioner did this out of showing the truth and untruths told by
the clerk in honorable Edward Davila’s office. This same judge once again allowed another
property to be given to groups of lawyers to continue to profit off of when the homes belongs to
petitioner, not bar members in Conspiracy to commit mortgage fraud for profit schemes, which is
proven and were given by petitioner to the judge himself, as he now states in this order that
petitioner did not speak up or say the defendants did anything wrong, which is FALSE. This is
against canons of ethics and oaths of office, as I clearly stated in my appeals and to the United
States Supreme Court previously to date. The Ninth Circuit Courts forms state the opposing
counsel does not have to respond to appeals if they choose, which petitioner is in shock. Their
own court staff pro se attorney has an email name and address stating an Asian.org. The judge

14
-Lucy-H-Koh-has-is-starting-her-own-Asian^merican.Bar.Association1.and.the-Ninth.Circuit____
website states one Ninth Circuit judge has set aside our Constitution for two years to allow all
illegals to have free fee waivers, but petitioner as an American citizen is not allowed, and has all
appeal fees retracted for retaliation in California Federal Courts. May I add that petitioner has
also paid all fees by check or money order to date with not one hearing. This is not the
petitioner's job to police the Federal courts, but bar members and others should be bringing this
information forward to the Supreme Court Justices, including the Chief Justice in their own
California Courts, including the judicial boards over the Federal Courts. Petitioner is one of
many mothers and children who are requesting help with no resolve, including fathers.The
courts over ten years have proven to be corrupted to what looks to be no return. Petitioners
case includes all fraud upon the courts from top to bottom. Petitioner is an entrepreneur with a
startup company, and has had thousands of leaders of corporations as clients for forty years,
mostly lawyers, judges, financial market CEO’s, bankers and top global professionals business
owners. One would hope our judicial system as a collective would be repaired so people can
live per their Rights per our Constitution and laws, as petitioners have to honor laws daily, and
expect petitioners' own children to do the same. Lawyers themselves also want to do their jobs,
but can not and have personally expressed this to petitioner.

Petitioner needs remedy, and this petition for writ of certiorari should be granted.

Respectfully,

2/

Audrey L.^imner, Petitioner, prc/se
Date and mailed, July, 20, 2021

Audrey L. Kimner, petitioner pro se
P.O. Box 1493
Carmel, CA 93921
843-754-1543
audrevkimner10@gmail.com

